WAIVER

SUPREME COURT OF THE UNITED STATES

No. |21-519

Growth Energy Am. Fuel & Petrochemical Mfrs., et al.
(Petitioner) Vv. (Respondent)

IDO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.

Please check the appropriate box:
oO lam filing this waiver on behalf of all respondents.

© I only represent some respondents. I am filing this waiver on behalf of the following respondent(s):

Renewable Fuels Association; National Corn Growers Association

Please check the appropriate box:
© Iam a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)
oO Iam not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk’s Office, 1 First Street, NE, Washington, D.C. 20543).
Signature: Matthew W. Morrison Le rere yaa
Date: 10/7/21
(Type or print) Name |Matthew W. Morrison

© wr. O ms. O mrs. O Miss

Firm Pillsbury Winthrop Shaw Pittman LLP

Address 1200 Seventeenth Street NW

City & State Washington, DC Zip 20036

Phone 202-663-8036 Email matthew.morrison@pillsburylaw.com

A copy of this form must be sent to petitioner’s counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.

seth.waxman@wilmerhale.com
ce:
